December 5, 2001

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT:	 Audit Report – Use of the Economic Value Added Concept in the Pay for
          Performance Program (Report Number LH-AR-02-001)

This report presents the results of our audit regarding the appropriateness of the Postal
Service’s use of the economic value added concept to fund its pay for performance
program (Project Number 00EA012LM000). The audit was a self-initiated review that
was included in our Fiscal Year 2000 Audit Workload Plan.

The audit revealed that the use of the economic value added concept was not
appropriate to fund the Postal Service’s pay for performance program. The concept,
created for profit-making entities, did not fit the Postal Service’s breakeven operating
environment. To make the concept work, the Postal Service added an inflation
adjustment. This resulted in program participants earning $805 million in incentive
awards for the period, while the Postal Service experienced steeply declining profits.
We recommended the Postal Service establish an alternative method for funding the
pay for performance program that fits its breakeven operating environment.
Management disagreed with our analysis, but agreed to look at alternatives to funding
the pay for performance program. Management’s comments, as well as our evaluation
of these comments are included in the report.

The OIG considers recommendation 1 significant and, therefore, requires OIG
concurrence before closure. This recommendation should not be closed in the follow-
up tracking system until the OIG provides written confirmation that the recommendation
can be closed. We appreciate the cooperation and courtesies provided by your staff
during the review. If you have any questions or need additional information, please
contact Larry Chisley, director, Accepting and Processing, at (703) 248-2100, or me at
(703) 248-2300.

//ORIGINAL SIGNED//

Ronald K. Stith
Assistant Inspector General
 for Core Operations

Attachment
cc: John E. Potter
    John M. Nolan
    Patrick R. Donahoe
    Richard J. Strasser, Jr.
    Donna M. Peak
    Lynn Malcolm
    John R. Gunnels
Use of the Economic Value Added Concept                            LH-AR-02-001
 In the Pay for Performance Program


                                 TABLE OF CONTENTS

Executive Summary
                                                     i

Part I


Introduction                                                           1


   Background                                                          1

   Objective, Scope, and Methodology                                   2

   Prior Audit Coverage                                                2


Part II


Audit Results                                                          4


   Economic Value Added Does Not Fit the Postal Service                4

   Recommendation                                                      8

   Management’s Comments                                               8

   Evaluation of Management’s Comments                                 8


Appendix A. Additional Background Information                          9


Appendix B. Management’s Comments                                     11


Appendix C. OIG’s Responses to Management’s Comments                  13





                                          Restricted Information
Use of the Economic Value Added Concept                                          LH-AR-02-001
 in the Pay for Performance Program


                                EXECUTIVE SUMMARY
Introduction                This is our second report on the pay for performance
                            program (Project Number 00EA012LM000). In our first
                            report, we concluded that the program permitted incentive
                            awards to executives during periods of declining profitability,
                            which could negatively impact public perception of the
                            Postal Service. We conducted this audit to determine the
                            appropriateness of using the economic value added concept
                            to fund the Postal Service’s pay for performance program.
                            The audit also generally addressed the Postal Service
                            financial performance, because the economic value added
                            concept is a financial performance measure. The audit was
                            a self-initiated review that was included in our Fiscal
                            Year 2000 Audit Workload Plan. We are reviewing whether
                            the Postal Service’s pay for performance program has
                            improved organizational performance in a separate audit.

Results in Brief
           The audit revealed the use of the economic value added
                            concept was not appropriate to fund the Postal Service’s
                            pay for performance program. The concept, created for
                            profit-making entities, did not fit the Postal Service’s
                            breakeven operating environment. To make the concept
                            work, the Postal Service added an inflation adjustment.
                            Management used the inflation adjustment to increase
                            revenues by $4.9 billion for fiscal years (FY) 1998 through
                            2000. This resulted in program participants earning $805
                            million in incentive awards for that period, while the Postal
                            Service experienced steeply declining profits. Without the
                            adjustment, economic value added, and incentive awards
                            would have been negative.

Summary of	                 We recommended that management establish an
Recommendations	            alternative method for funding the pay for performance
                            program that fits the Postal Service’s breakeven operating
                            environment.

Summary of                  Management disagreed with our analysis but agreed with
Management’s                the recommendation. Management stated that while they
Comments                    believed indexing made the economic value concept fit the
                            Postal Service environment, they agreed to evaluate
                            alternative methods for funding incentive awards by
                            FY 2002. The full text of management’s comments is
                            included in Appendix B.



                                                     i
                                          Restricted Information
Use of the Economic Value Added Concept                                       LH-AR-02-001
 in the Pay for Performance Program




Overall Evaluation of       Management’s response to the recommendation should
Management’s                resolve the issues presented in the report. Our response to
Comments                    some of management’s comments, which take exception to
                            our analysis, is included in Appendix C.




                                                     ii
                                          Restricted Information
Use of the Economic Value Added Concept                                                            LH-AR-02-001
 in the Pay for Performance Program


                                           INTRODUCTION
Background                       The Postal Service implemented the economic value added
                                 concept in fiscal year (FY) 1996 to fund its pay for
                                 performance program. The program was established as a
                                 group incentive program to reward managers for increasing
                                 the economic value of the Postal Service and achieving
                                 strategic goals.

                                 In its simplest form, economic value added equals profits1
                                 minus the cost of capital invested to produce those profits.2
                                 This formula is the first step in determining funding for
                                 incentive awards and, when combined with Postal Service
                                 strategic goals, is intended to reward employees for
                                 improving customer satisfaction, employee effectiveness,
                                 and financial performance. Under the program, without
                                 economic value added, there would be no funds available to
                                 reward program participants.

                                 The economic value added concept was developed by
                                 consultants for profit-making entities to reward employees
                                 for continuously increasing the economic value of their
                                 company. The Postal Service adopted this concept,
                                 immediately following the fiscal year in which they
                                 experienced record profits, to change the Postal Service’s
                                 focus from the traditional government culture to a more
                                 business-like culture. This is evidenced in the objectives of
                                 the Postal Service’s pay for performance program.
                                 Specifically, the objectives were to:

                                 •   Increase revenues and profits.
                                 •   Reduce or maintain expenses.
                                 •   Assure expected returns on capital investments.

                                 These objectives were designed to increase the economic
                                 value of the Postal Service.

                                 See Appendix A for additional background information
                                 regarding the use of the economic value added concept as
                                 part of the Postal Service’s pay for performance program.




1
 The Postal Service refers to profits as net operating income.

2
 The Postal Service also makes accounting adjustments in calculating economic value added consistent with those

made by private sector companies.


                                                        1
                                             Restricted Information
Use of the Economic Value Added Concept                                           LH-AR-02-001
 in the Pay for Performance Program


Objective, Scope, and       Our objective was to determine the appropriateness of using
Methodology                 the economic value added concept to fund the Postal
                            Service’s pay for performance program.

                            To achieve the objective, we:

                             •	 Reviewed available documentation pertaining to the
                                program.

                             •	 Interviewed various headquarters personnel and private
                                consultants specializing in executive compensation.

                             •	 Reviewed program policies and procedures.

                            This audit was conducted from March 2000 through
                            December 2001 in accordance with generally accepted
                            government auditing standards, and included such tests of
                            internal controls as were considered necessary under the
                            circumstances. We discussed our conclusions and
                            observations with appropriate Postal Service officials and
                            included their comments, where appropriate.

                            In addition to this audit, we are performing other audits in
                            the following key areas of the program:

                            •	 Total factor productivity, focusing on whether this
                               measure accurately calculates increases or decreases in
                               productivity.

                            •	 Performance measures, focusing on changes in the
                               measures and the impact of those changes on Postal
                               Service operations.

                            We also plan to issue a capping report summarizing the
                            results of all of our audits.

Prior Audit Coverage
       On July 31, 2000, we issued audit report number LB-AR-00-
                            001, Economic Value Added Variable Pay Program. We
                            concluded that the program might permit incentive awards
                            during periods of declining financial performance, which
                            could negatively impact public perception of the Postal
                            Service. In this regard, we reported a trend that incentive
                            awards remained stable while profits declined every year
                            since the program began in 1996. In response to the report,
                            the postmaster general briefed the Board of Governors
                            (Board) on the trends presented in the report. However,

                                                     2
                                          Restricted Information
Use of the Economic Value Added Concept                                     LH-AR-02-001
 in the Pay for Performance Program


                            management disagreed with our recommendation to
                            consider alternatives to the program, stating that the
                            program was sound and required no significant changes.




                                                     3
                                          Restricted Information
Use of the Economic Value Added Concept                                                               LH-AR-02-001
 in the Pay for Performance Program


                                            AUDIT RESULTS
Economic Value                    The use of the economic value added concept was not
Added Does Not Fit                appropriate to fund the Postal Service’s pay for performance
the Postal Service                program. Specifically, the concept, created for profit-making
                                  entities, did not fit the Postal Service’s breakeven operating
                                  environment. To make the concept work, the Postal Service
                                  modified the concept to include an inflation adjustment3 that
                                  would ensure funding for its pay for performance program.
                                  This resulted in program participants earning $805 million in
                                  incentive awards for FYs 1998 through 2000, while the
                                  Postal Service experienced steeply declining profits.
                                  Without the adjustment, economic value added and
                                  incentive awards would have been negative.

Postal Service Modifies           In the first 2 fiscal years--1996 and 1997-- the Postal
Program to Fit                    Service had profits of $2.8 billion. After deducting the cost
Breakeven                         of capital, these profits yielded $1.9 billion in economic
Environment                       value added and $554 million in incentive awards for
                                  program participants. However, in 1997 Postal Service
                                  managers became concerned that the concept, as
                                  implemented, would no longer fit the breakeven
                                  environment and provide funding to reward employees for
                                  achieving strategic goals. Specifically, financial projections
                                  showed the Postal Service could not continue to generate
                                  positive economic value added; thereby, eliminating
                                  incentive awards for the foreseeable future.

                                  In addition, management was concerned that financial
                                  performance would be hindered by the Postal Service’s
                                  breakeven mandate4 and lack of complete control over
                                  postage rate increases.5 Finally, Postal Service managers
                                  were concerned that a lack of incentive awards would
                                  eliminate the motivational impact and acceptance of the
                                  program by 17,000 employees added to the program in
                                  FY 1998.




3
  Postal Service program guidance refers to this as a revenue adjustment. The net inflation adjustment is comprised
of the consumer price index for urban consumers less postage rate increases both accumulated since 1997.
4
  39 United States Code 3621 states Postal Service rates and fees shall provide sufficient revenues so that the total
estimated income will equal as nearly as practicable the total estimated costs of the Postal Service. Total estimated
costs includes operating expenses, depreciation, debt service, and a reasonable provision for contingencies.
5
 The Postal Service must submit any proposed rate increase to the Postal Rate Commission for review and approval.

                                                         4
                                              Restricted Information
Use of the Economic Value Added Concept                                                              LH-AR-02-001
 in the Pay for Performance Program


                            The Postal Service hired two consultants to address these
                            concerns. Each of the consultants provided a proposal to
                            modify the program. Management also developed their own
                            proposal. All three proposals recommended some form of
                            inflation adjustment to be added to the funding formula. The
                            Postal Service presented their analyses of the three
                            proposals to the Board of Governors for consideration.
                            Ultimately, management’s proposal was adopted, which
                            was consistent with, but less conservative than the
                            consultants’ proposals. In essence, management’s
                            proposal, which was implemented, would provide larger
                            incentive awards to program participants. In 1999, the
                            Postal Service hired a third consultant to review their
                            program. This consultant commented that the inflation
                            adjustment was unique to the Postal Service but otherwise
                            appeared sound and reasonable given distortions caused
                            by the rate cycle.

                            Following is a discussion of the inflation adjustment’s impact
                            on economic value and incentive awards.

Inflation Adjustment’s      Using the inflation adjustment, the Postal Service increased
Impacts on Economic         revenues by $4.9 billion for FYs 1998 through 2000. This
Value Added and             allowed the Postal Service to create $2.9 billion in economic
Incentive Awards            value added. Without the inflation adjustment, economic
                            value added would have been a negative $2 billion for the
                            same period. The following chart shows economic value
                            computed with and without the inflation adjustment:

                                                                Economic Value Added
                                                       With and Without the Inflation Adjustment
                                           $2,000                               $1,789

                                           $1,500
                                           $1,000      $512         $552
                                             $500                                              With Inflation
                              (Millions)




                                                $0                                             Adjustment
                                            ($500)
                                            Without Inflation
                                                          -$387                                Adjustment
                                           ($1,000)
                   -$598
                                                                                   -$1,026
                                           ($1,500)

                                                        1998         1999         2000
                                                                  Fiscal Year




                                                           5
                                                Restricted Information
Use of the Economic Value Added Concept                                                              LH-AR-02-001
 in the Pay for Performance Program


                            Based on the inflation adjustment, program participants
                            earned $805 million in incentive awards for FYs 1998
                            through 2000. Without the inflation adjustment, economic
                            value and incentive awards would have been negative for
                            that period. The following chart shows incentive awards
                            with and without the inflation adjustment:

                                                                   Incentive Awards
                                                        With and Without the Inflation Adjustment
                                           $350
                                                     $266                         $283
                                                                     $256
                                           $250
                                                                                                    With
                                           $150                                                     Inflation
                              (Millions)




                                                                                                    Adjustment
                                           $50
                                                                                                    Without
                                           ($50)     -$4                                            Inflation
                                                                    -$33                            Adjustment
                                     ($150)
                                                                                 -$183
                                     ($250)
                                                      1998           1999           2000
                                                                  Fiscal Year



                            In addition, while the Postal Service was profitable for 4 of
                            the 5 years of the program, the profits for FYs 1998 through
                            2000 were not sufficient to generate funding for incentive
                            awards without the inflation adjustment. Specifically,
                            program participants earned incentive awards totaling
                            $805 million during a period of steeply declining profits. As
                            illustrated in the following chart, incentive awards remained
                            relatively constant from FYs 1998 through 2000, while
                            Postal Service profits fell from $550 million to a loss of
                            $199 million.




                                                              6
                                                   Restricted Information
Use of the Economic Value Added Concept                                                      LH-AR-02-001
 in the Pay for Performance Program



                                                    Incentive Awards Compared with Profits


                                           $600     $550
                                           $500
                                                                   $363
                                           $400
                                                                               $283
                                           $300                                                Profits



                              (Millions)
                               Profits
                                           $200     $266          $256                         Incentive
                                           $100                                                Awards
                                             $0
                                           ($100)
                                           ($200)
                                                                               -$199
                                           ($300)
                                                      1998             1999       2000
                                                                 Fiscal Year



                            Furthermore, the use of an inflation adjustment reduced the
                            risk of loss of incentive awards credited to participants’
                            reserve accounts. Not all incentive awards are paid to
                            participants in the year they are earned. Incentive awards
                            are first credited to reserve accounts established for each
                            participant. A fixed percent of the total reserve account
                            balance is then paid to participants. Reserve account
                            balances were intended to be “at risk.” Implementation of
                            the inflation adjustment reduced the negative impact that
                            declining profits would have on reserve account balances
                            for the period 1998 through 2000.

                            For example, because of the inflation adjustment, losses in
                            excess of $2 billion would have been needed before reserve
                            accounts were reduced in FY 2000. Also, for FY 2001--a
                            year in which postage rates increased 6.2 percent--a similar
                            loss would be needed before reserve accounts would be
                            reduced.

                            Without the inflation adjustment, the risk associated with the
                            reserve accounts would have been maintained and
                            participants would still have received payments totaling
                            $110 million in FYs 1998 and 1999. However, no incentive
                            award payments would have been made in FY 2000,
                            because reserve accounts would have been depleted.




                                                         7
                                              Restricted Information
Use of the Economic Value Added Concept                                         LH-AR-02-001
 in the Pay for Performance Program



Briefing to the Board of    On August 6, 2001, we briefed the Board of Governors on
Governors and               the results of our audit. We presented our concern that
Conclusion                  Postal Service officials adopted an economic value added
                            concept to fund its pay for performance program, which
                            does not fit the Postal Service’s breakeven operating
                            environment. The postmaster general agreed to provide the
                            Board of Governors with alternatives.

Changes to the Draft        Based on discussions held with management since the
Report Based on             issuance of the draft report, we made changes to the report
Interim Discussions         to more clearly reflect that we do not take issue with the
with Management             Postal Service’s use of pay for performance—just its
                            methodology for computing incentive funding.

Recommendation	             We recommend the senior vice president, Human
                            Resources:

                            1.	 Establish an alternative method for funding the pay for
                                performance program that fits the Postal Service’s
                                breakeven operating environment.

Management’s                Management disagreed with our analysis but agreed with
Comments                    the recommendation. Management stated that while they
                            believed indexing made the economic value added concept
                            fit the Postal Service environment, they agreed to evaluate
                            alternative methods for funding incentive awards by
                            FY 2002.

Evaluation of               Management’s comments to the recommendation are
Management’s                responsive, and should resolve the issues presented in the
Comments                    report. Our response to some of management’s comments,
                            which take exception to our analysis, is included in
                            Appendix C.




                                                     8
                                          Restricted Information
Use of the Economic Value Added Concept                                                           LH-AR-02-001
 in the Pay for Performance Program


         APPENDIX A. ADDITIONAL BACKGROUND INFORMATION
The economic value added variable pay program (now called the pay for performance
program), developed in coordination with outside consulting firms, was modeled after
the economic value added concept developed for profit-making companies. The Postal
Service states economic value added is superior to other measures of financial
performance because it provides an incentive to employees to increase revenues and
reduce expenses while optimizing capital deployment. The program includes a formula
used to calculate the maximum funding available for incentive awards. Attainment of
performance targets is considered in determining the amount of incentive awards
allocated to program participants.

Funding of Incentive Awards. Determining economic value added is the first step in
calculating the maximum funding available for incentive awards. In its simplest form,
economic value added is calculated as:

Revenue - Operating Cost - Cost of Capital = Economic Value Added6

Once economic value added is calculated, the maximum funding for incentive awards is
calculated as 65 percent of the first $400 million in economic value added, and
25 percent of economic value added over $400 million.

Attainment of Performance Targets. Each year performance targets are established to
improve customer satisfaction, strengthen employee and Postal Service effectiveness,
and improve financial performance. The percent of targets attained is applied to the
maximum funding available for incentive awards to determine the actual amount of
incentives to be allocated to program participants.

Allocating Incentive Awards to Program Participants. Incentive awards are first credited
to reserve accounts established for each participant. A fixed percent of the total reserve
account balance is then paid to each participant. The remaining reserve account
balances are intended to be “at risk” to encourage long-term performance
improvements. For instance, if performance is not maintained or improved negative
economic value can be allocated to each employee, reducing their reserve account
balances.

In exchange for participating in the program, approximately 84,000 Postal Service
managers agreed to forgo automatic general pay and cost of living increases. Included
are participants who agreed to forgo premium pay for overtime worked. All managers
are still eligible for salary increases through the Postal Service merit pay program.




6
 The Postal Service also makes accounting adjustments in calculating economic value consistent with those made
by private sector companies.

                                                       9
                                            Restricted Information
     Use of the Economic Value Added Concept                                                                  LH-AR-02-001
      in the Pay for Performance Program



     The following chart illustrates the calculation of incentive awards since 1996.

                                               Calculation of Incentive Awards
                                                            ($000)

                                  1996                1997                  1998                 1999                  2000
Operating Revenue        $      56,401,456     $     58,215,774    $      60,072,459     $      62,725,701      $    64,539,722
   Total Expenses        $     (54,055,214)    $    (56,025,043)   $     (59,048,463)    $     (61,847,872)     $   (63,906,850)
   Capital Charge        $      (1,276,436)    $     (1,364,112)   $      (1,410,875)    $      (1,475,882)     $    (1,658,976)
Economic Value
without Inflation        $       1,069,805     $        826,619    $        (386,879)    $        (598,053)     $    (1,026,104)
Adjustment
   Net Inflation
               7                                                   $          899,173    $        1,149,751     $      2,815,192
   Adjustment
Economic Value with
                    8                                              $          512,294    $         551,698      $      1,789,088
Inflation Adjustment


Maximum Funding
Available for            $         367,451     $        346,655    $          288,074    $         297,925      $       607,272
                9
Incentive Awards
    Percent Target
               10                        69%                 87%                   93%                  86%                   48%
    Attainment
Incentive Awards
Allocated to             $         252,398     $        302,065    $          266,370    $         256,344      $       283,320
Participants




     7
       This approach resulted in a net upward adjustment of revenue for 1998, 1999, and 2000 totaling $4.9 billion.
     8
       There was no inflation adjustment in the calculation of economic value for 1996 and 1997.
     9
       In 1996, this amount was calculated as 50 percent of the first $400 million in economic value added, plus 25 percent
     of any amount over $400 million. In 1997, this amount was calculated as 60 percent of the first $400 million plus
     25 percent of any amount over $400 million. Since 1998, this amount calculated as 65 percent of the first
     $400 million plus 25 percent of any amount over $400 million. Changes in the formula were the result of additional
     participants being added to the program.
     10
        Target attainment differs between organizational levels. Thus, these percentages are for illustration purposes only
     and do not represent actual target attainment percentages for the Postal Service.

                                                             10
                                                   Restricted Information
Use of the Economic Value Added Concept                            LH-AR-02-001
 in the Pay for Performance Program


                 APPENDIX B. MANAGEMENT’S COMMENTS




                                                    11
                                          Restricted Information
Use of the Economic Value Added Concept                            LH-AR-02-001
 in the Pay for Performance Program




                                                    12

                                          Restricted Information
Use of the Economic Value Added Concept                                     LH-AR-02-001
 in the Pay for Performance Program


 APPENDIX C. OIG’s RESPONSES TO MANAGEMENT’S COMMENTS
Management’s Comments

Management states that because the OIG is reviewing the pay for performance program
in phases, a comprehensive assessment of the effectiveness of the program is limited
based on this report.

OIG Comments

The pay for performance program is composed of three key elements: funding of the
program, attainment of performance targets, and allocation of incentive awards to
program participants. The OIG decided to audit these elements separately to facilitate
timely reporting of opportunities for improvement. The OIG will issue a report
summarizing the overall conclusions regarding the pay for performance program, once
we have completed reports on the three elements.

Management’s Comments

Management stated that Stern-Stewart and Company, the consultants who developed
the economic value added concept never indicated to management that they felt the
concept was inappropriate for the Postal Service. They stated they would continue to
rely on Stern-Stewart as the “subject matter experts.”

OIG’s Comments

Management consulted Stern-Stewart when they initially adopted the economic value
added concept in 1996. The concept was adopted without indexing and applied in the
same manner as applied by profit making companies. The concept was successful in
generating funding of $554 million in incentive awards for 1996 and 1997. However, in
1997 management became concerned that the concept, as implemented, would no
longer fit the postal breakeven environment. Specifically, financial projections showed
the Postal Service could not continue to generate funding for incentive awards for the
foreseeable future. Thus, management again consulted with Stern-Stewart and another
consultant to recommend ways to address this issue. The two consultants proposed
indexing as a way to address the issue. Management also proposed a form of indexing.
We note that while management refers to Stern-Stewart as the “subject matter expert in
this area,” they did not adopt their indexing proposal. Instead, management adopted
their own proposal, which was more aggressive than the proposals offered by the
consultants. If either of the consultant’s proposals had been adopted, the incentive
awards for 1998 through 2000 would have been significantly reduced or eliminated.




                                                    13
                                          Restricted Information
Use of the Economic Value Added Concept                                         LH-AR-02-001
 in the Pay for Performance Program



Management’s Comments

Management disagreed with the OIG’s analysis and stated indexing makes the
economic value added concept fit the Postal Service’s breakeven operating
environment. Management stated that indexing recognizes their rate-setting
constraints, and ensures that incentive awards are not earned based on increased
postage rates. Management also stated that the economic value added concept
creates an appropriate funding pool for the program based on net income and
management’s ability to minimize rate increases.

OIG Comments

We acknowledge that keeping postage rates below inflation would benefit Postal
Service customers if these rates allowed the Postal Service to recover all costs,
including debt service and a reasonable reserve for contingencies as required by law.
However, while the Postal Service may have kept postage rates below inflation, it has
experienced steeply declining profits including a loss of about $1.6 billion at the end of
FY 2001. In addition debt has increased by over $5 billion. We noted that Postal
Service profits fell $3.9 billion short of covering capital costs for FYs 1998 through 2000;
however, $805 million in incentive awards were earned by pay for performance program
participants. Thus, any benefits to customers are short-term at best because the Postal
Service has had to borrow to fund financial shortfalls and capital investments, and will
eventually need to increase rates to pay these debts.




                                                    14
                                          Restricted Information
